CERTIFICATE OF COMPLIANCE
No.
DARREN HEYMAN, Petitioner,

v.

United States District Court for the District of Nevada, Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
mandamus contains 6080 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 25, 2020
Respectfully submitted.
Is/ Darren Hevman
Darren Heyman
Pro Se
6671 Las Vegas Blvd South, #D-210
Las Vegas, NV 89119
(702) 576-8122

November 25, 2020.

27

